2311 Douglas Street
Omaha, Nebraska68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-942
LAUREL ZUCKERMAN, as Ancillary Administratrix
of the Estate of Alice Leffmann,
Petitioner,
v.
THE METROPOLITAN MUSEUM OF ART,
Respondent.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF CURRENT AND FORMER MEMBERS OF
CONGRESS AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:
SEE ATTACHED

To be filed for:
ANDREW H. ERTESCHIK
Counsel of Record
D. CARMICHAEL MCINTYRE II
DAVID DREIFUS
SAADGUL
JOHN MICHAEL DURNOVICH
NATHANIEL C. ZINKOW
POYNER SPRUILL LLP
Post Office Box 1801
Raleigh, NC 27602
(919) 783-2895
aerteschik@poynerspruill.com

Subscribed and sworn to before me this 21st day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39470

Attorneys for Petitioner
Mary-Christine Sungaila
Counsel of Record

Haynes and Boone, LLP
600 Anton Boulevard
Suite 700
Costa Mesa, CA 92626

(949) 202-3062

MC.Sungaila@haynesboone.com
Party name: Laurel Zuckerman, as Ancillary Administratrix of the Estate of Alice Leffmann
Attorneys for Respondent
David William Bowker
Counsel of Record

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
david.bowker@wilmerhale.com

Party name: The Metropolitan Museum of Art

(202) 663-6558

